Supreme Court, U.S.
FILED

WAIVER

MAR 0 1 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-7028

Fillmore County, Minnesota, et al.

Amos Mast, et al.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter, my
appearance as Counsel of Record for the following respondent(s):

Minnesota Pollution Control Agency

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a By. mem
Signature
Date.

Marc

(Type or print) Name

Christina Brown
Mr. Q Ms.

Firm

VED

❑ Miss

MAR - 8 2021

Office of the Minnesota Attorney General

Address

OFFICE OPINE CLERK
SUPREME 0 /11T us

445 Minnesota Street, Suite 900

City & State
Phone

❑ Mrs.

St. Paul, MN

(651) 757-1471

Zip
Email

55101

christina.brown@ag.state.mn.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Mr. Brian Lipford, counsel for Petitioners; Mr. Brett Corson, Fillmore County Attorney

The Office of

Minnesota Attorney General Keith Ellison
helping people afford their lives and live with dignity and respect •

www.ag.state.mn.us

March 1, 2021
via USPS
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Amos Mast, et al. v. Fillmore County, Minnesota, et al.
Case No. 20-7028

Dear Mr. Harris:
Please find enclosed Respondent Minnesota Pollution Control Agency's waiver of its
response to the petition for writ of certiorari in the above-entitled matter.
Sincerely yours,
/s/ Christina Brown
CHRISTINA BROWN
Assistant Attorney General
(651) 757-1471 (Voice)
(651) 297-4139 (Fax)
christina.brown@ag.state.mn.us
Attorney for Minnesota Pollution Control Agency
cc:

Brett Corson, Fillmore County Attorney
Brian Lipford, SMRLS

445 Minnesota Street, Suite 1400, St. Paul, MN 55101-2131
Office: (651) 296-3353 • Toll Free: (800) 657-3787 • Minnesota Relay: (800) 627-3529
An Equal Opportunity Employer Who Values Diversity • Printed on 30% Post-Consumer Material Pa

